 

IN THE

Supreme Court of the United States

LESLIE RUTLEDGE, in her official capacity as
Attorney General of the State of Arkansas, et al.,

Petitioners,
Vv.

LITTLE ROCK FAMILY PLANNING SERVICES, et al.,
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Eighth Circuit

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,722 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on April 9, 2021.

 

Colin Casey (logan
Wilson-Epes Printing Co., Inc.
